No. 20-1374

In The

Supreme Court of the United States
____________
CVS PHARMACY, INC., ET AL.,
V.

Petitioners,

JOHN DOE, ONE, ET AL.,
Respondents.
____________
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
____________
BRIEF FOR THE CHAMBER OF COMMERCE OF THE UNITED STATES
OF AMERICA AS AMICUS CURIAE IN SUPPORT OF PETITIONERS
____________
CERTIFICATE OF SERVICE
I, Gregory G. Garre, counsel of record for amicus curiae the Chamber of
Commerce of the United States of America and a member of the Bar of this Court,
hereby certify that on the 30th day of April, 2021, I caused a single copy of the Brief
for the Chamber of Commerce of the United States of America as Amicus Curiae in
Support of Petitioners in the above-referenced case to be served by first-class mail,
postage prepaid, upon counsel as listed below:

Lisa Schiavo Blatt
Williams & Connolly LLP
725 12th Street, NW
Washington, DC 20005
(202) 434-5050
lblatt@wc.com
Counsel for Petitioners
Gerald S. Flanagan
Consumer Watchdog
6330 San Vincente Blvd.
Suite 250
Los Angeles, CA 90048
(310) 392-0522
jerry@consumerwatchdog.org
Counsel for Respondents
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Brief for the Chamber of Commerce of the United States of America as
Amicus Curiae in Support of Petitioners was transmitted to the above-listed counsel
at the referenced email addresses.
I further certify that all parties required to be served have been served.

By

Gregory G. Garre
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com
Counsel for Amicus Curiae

2

